CERTIFICATE OF SERVICE
I, Michael F. Smith, counsel for the Amici Curiae, pursuant to this Court’s
April 15, 2020 Order Regarding Filings, hereby certify that on this 23rd day of
December, 2020, I caused copies of the Motion for Leave to File Amicus Curiae Brief
(with included brief) to be served on the following counsel:
Gregory H. Teufel
OGC Law, LLC
1575 McFarland Rd., Ste. 201
Pittsburgh, PA 15216
gteufel@ogclaw.net
Counsel for Petitioners Mike Kelly, et al
Michele D. Hangley
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103
mhangley@hangley.com
Counsel for Respondents Commonwealth of Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar
Jonathan F. Bloom
Stradley Ronon Stevens and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
jbloom@stradley.com
Counsel for Respondent Pennsylvania General Assembly
Counsel for Petitioners and Counsel for Respondents Commonwealth of
Pennsylvania, Thomas W. Wolf, and Kathy Boockvar have agreed to email service
only. Counsel for Respondent Pennsylvania General Assembly is being served by
email and by first-class mail, postage prepaid to his address above.
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Michael F. Smith
Michael F. Smith
December 23, 2020

